U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


             INTERNATIONAL TRADE
                  ADMINISTRATION

        Y2K Risk of Interrupted Operations
           Is Low, but Some Improvements
             Needed in Day One Planning

        Inspection Report No. OSE-12550 / December 1999




                             Office of Systems Evaluation
December 21, 1999



MEMORANDUM FOR:                   Ambassador David L. Aaron
                                  Under Secretary of Commerce for
                                   International Trade


FROM:                             Johnnie E. Frazier

SUBJECT:                          Final Inspection Report, ITA Y2K Risk of Interrupted Operations
                                  Is Low, But Some Improvements Needed in Day One Planning
                                  (Report No. OSE-12550)


The Office of Inspector General has completed a review of the International Trade
Administration’s efforts to reduce the risk of business interruption due to the year 2000 (Y2K)
century change. We reviewed ITA’s Day One plan for managing the critical century rollover
period 1 and its contingency plans for continuing operations in case of computer system failures.

We believe the likelihood of interruption of ITA’s business operations due to Y2K system
failures, in general, is low because most activities supported by computers are not time-critical
and for most failures ITA staff can revert to other computers or manual operations without
significantly degrading performance. We believe ITA’s greatest risks are ensuring that cable
services will be available to back-up its Message Processing System at the Telecommunication
Center and that adequate preparations have been made for the rollover period. We recommend
that ITA complete an agreement for back-up cable services with the Department of State, test
these cable services, and refine its Day One plans.

Because of the short time remaining before the century change and the concurrence of ITA
officials, we are issuing this report in final. We presented our concerns to the appropriate ITA
officials at an exit briefing held on December 13, 1999, and they have agreed with all of our
recommendations and are implementing them. ITA’s memorandum concurring with our
observations and recommendations is attached. We would like to thank the dedicated and
knowledgeable staff at ITA for working with us to complete our review.




        1
         GAO has defined the century rollover period as December 30, 1999, through January 4, 2000, in its Day
One guide, Y2K Computing Challenge: Day One Planning and Operations Guide, GAO/AIMD-10.1.22, October
1999.
U.S. Department of Commerce                                        Final Inspection Report OSE-12550
Office of Inspector General                                                           December 1999

BACKGROUND

International trade is vital to our nation’s economy. ITA's mission is to help U.S. business
succeed globally by encouraging, assisting, and advocating U.S. exports; ensuring U.S.
companies have equal access to foreign markets; and enabling U.S. businesses to compete
against unfairly traded imports. ITA’s mission helps safeguard American jobs and maintain the
competitive strength of American industry. ITA has over 200 offices around the world.

The Y2K problem results from computer systems that have been programmed with only the last
two digits of a year rather than all four. This approach can cause computer systems to fail
because they will not be able to distinguish between the years 1900 and 2000. ITA does not
perform many time-critical computer operations but does need to avoid interruptions caused by
Y2K system defects.

PURPOSE AND SCOPE

The purpose of this review is to reduce the risk of business interruption due to the year 2000
century change by assessing ITA’s contingency and Day One plans and recommending practical
risk mitigation activities. Specifically, we reviewed the ITA Business Continuity and
Contingency Plan matrix, the ITA high level Day One plan, and Day One plans from ITA
business units. We also interviewed representatives responsible for contingencies for four
systems: the Client Management System (CMS), the Message Processing System (MPS), the
Central Records Information Management System (CRIMS) and the Anti-Dumping/
Countervailing Duty System (AD/CVDS). Because time was limited, we did not review all the
systems identified in the Business Continuity and Contingency matrix (i.e., Trade Policy
Information System, Textile Information System, or ITA's financial management systems).
Also, we did not review the Y2K compliance of ITA’s computer systems.

Our criteria were derived from GAO and OMB guidelines for the Y2K computing crisis,
research institutions, and best practices. Our work was performed in accordance with the
Inspector General Act of 1978, as amended, and the Quality Standards for Inspections, March
1993, issued by the President’s Council on Integrity and Efficiency. We conducted our
fieldwork between October and December 1999.

OBSERVATIONS AND CONCLUSIONS

I.     ITA’s Risk of Interrupted Service Is Low

ITA's risk of business interruption due to Y2K system failures, in general, is low because most
activities supported by computers are not time-critical and for most failures ITA staff can revert
to other computers or manual operations without significantly degrading performance. For


                                                 2
U.S. Department of Commerce                                               Final Inspection Report OSE-12550
Office of Inspector General                                                                  December 1999

example, two of the systems we reviewed (CRIMS and AD/CVDS) are used by ITA's Import
Administration for analysis of unfair import cases. These cases must be completed within 160
days. Reverting to manual operations for several days would not significantly jeopardize
completing these cases in time. The Import Administration staff has already prepared to use
manual operations for cases that are due around the century rollover, and the staff is familiar
with manual operations. In other situations, alternate computers or communications networks
can be used if primary facilities fail. For example, if the e-mail component of the CMS platform2
fails, then ITA's United States Foreign and Commercial Service worldwide offices will use the
Internet for communications.

II.    The Message Processing System Contingency Plan Needs to Be Completed

ITA Telecommunication Center's (TCC) Message Processing System receives and sends cables
via the State Department cable services. The system is an important means of communication
for ITA headquarters and worldwide offices. Over 150 individuals and organizations at
Commerce Department headquarters use the MPS to exchange budget, personnel, and trade
information. The system carries up to 1,200 cables per day. Fifteen percent of the cables are
classified and less than one percent are urgent. MPS operators are required to acknowledge
receipt of urgent cables to the sender within 15 minutes. MPS hardware components are fully
redundant, and TCC has a maintenance contract with the MPS vendor, the Xerox Corporation.

The MPS contingency plans depend on cable services provided by the State Department. If
MPS fails and cannot be repaired within eight hours, then TCC plans to send a request (via MPS
signal, telephone line, or facsimile) to the State Department Beltsville cable center to re-route
messages to Annex 44 3. Annex 44 will print the cables and file them for pick-up by TCC staff.
If Annex 44 is unavailable, then the Beltsville cable center will print and file the cables for pick-
up. If Beltsville is unavailable, then alternate means for communicating, such as e-mail and
secure telephones, will be used. Also, TCC will serve as back-up for Annex 44.

To prepare for this contingency, TCC drafted a Memorandum of Understanding (MOU) for
signature by the three parties TCC, Annex 44, and the Beltsville cable center. However, by the
end of our field work, the first two parties had signed the agreement, but the Beltsville cable
center had not. Although TCC officials stated that even without the MOU, cables could be re-
routed, we believe that a signed agreement will provide further assurance that the State
Department cable service will be available for MPS back-up.




       2
           The CMS platform is Lotus-Notes.
       3
           Formerly, Annex 44 was the United States Information Agency.

                                                      3
U.S. Department of Commerce                                      Final Inspection Report OSE-12550
Office of Inspector General                                                         December 1999

We are also concerned that this contingency has not been tested. TCC has never tried to re-
route cables as described in the contingency plan. Finally, MPS files are routinely backed up
each quarter year. The files were last backed up in October, and another back-up is not planned
until after the century rollover. It would be prudent to back up the files close to the century
rollover in order to have the most up-to-date files in case MPS needs to be restarted due to a
Y2K failure.

ITA has agreed to complete the MOU, test the MPS contingency, and back up the MPS files
closer to December 30.

III. ITA Should Update and Validate Its Day One Plan

The days surrounding the century rollover are critical to Y2K planning. Although systems and
business operations will be most vulnerable to Y2K-induced interruption during this period,
proper Day One planning can minimize the adverse impacts. Day One plans describe a
comprehensive set of actions to perform during the century rollover period from December 30
through January 4. Primarily, they describe procedures for minimizing problems and reporting
the status of business operations to executive management, business partners, and the public.
Day One plans should include the following information to be effective:

l      System back-up procedures to establish stable baselines of data if systems fail and need
       to be restarted.

l      System shutdown and start-up procedure to minimize the impact of power surges and
       ensure orderly activation of systems to determine whether they function properly in the
       new millennium.

l      Staff responsibilities and schedules for carrying out the Day One plan.

l      Maintenance contract contacts.

l      Status reporting procedures, including the means of reporting, when to report, and what
       information to report.

l      Activities supporting contingencies, such as printing computer files required for manual
       back-up procedures.

The ITA Day One plan we reviewed was general and did not contain the level of detail
necessary to carry out an effective Day One strategy. However, ITA has informed us that it is
updating its plans with more details. The ITA plan will cover headquarters and worldwide
operations. ITA’s Day One plan will include appendixes provided by ITA units describing their
specific Day One activities. ITA's United States and Foreign Commercial Service, the business

                                               4
U.S. Department of Commerce                                      Final Inspection Report OSE-12550
Office of Inspector General                                                         December 1999

unit responsible for international operations, has already issued its Day One plan. We also
believe that ITA should validate its Day One plan through an independent desktop review to
ensure that it will work properly.

ITA has agreed to complete a detailed Day One plan for headquarters and worldwide locations
containing the information listed above and to validate the plan through a desktop review.


RECOMMENDATIONS

We recommend that the Under Secretary ensure that:

1.     ITA updates and completes a detailed Day One plan. The plan must include a
       comprehensive set of actions for ITA headquarters and all ITA business units. The plan
       should document, at a minimum: back-up, shutdown, and start-up procedures;
       government and contractor staff assignments and schedules; maintenance vendor
       contacts; status reporting procedures; and any activities necessary to support
       contingencies, such as printing computer files for manual back-ups.

2.     ITA validates the updated Day One plan through an independent desktop review to
       ensure that it will work properly.

3.     The ITA Telecommunication Center

       a.      Completes the Memorandum of Understanding with the Department of State
               Beltsville cable center for contingency services.

       b.      Tests the contingency for cable services, including rerouting cables to Annex 44
               and the Beltsville cable center.

       c.      Backs up the Message Processing System files closer to December 30.




                                               5
